oN

C@OCKLE

Legal Briefs

Est.1923

E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1474

JOSEPH COLONE,
Petitioner,
ve
THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA, FOR THE COUNTY OF SAN FRANCISCO,
Respondent.
GITHUB, INC..
Real Party in Interest.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF AMICI CURIAE OF
LEGAL SCHOLARS AND SCIENTISTS IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5215 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 20th day of May, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

m GENERAL MOTARY-State of Nebraska &v hb
1 RENEE J. GOSS ( herd ter ‘.
Aste My Comm. Exp. Soptember 8, 2023 7
Notary Public Affiant
40883
